No. _______________
--ooOoo-IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2021
--ooOoo-ISIAH LAMONTE BROWN, Petitioner
vs.
THE STATE OF CALIFORNIA, Respondent
--ooOoo-ON PETITION FOR WRIT OF CERTIORARI TO THE
FIRST DISTRICT COURT OF APPEAL
OF THE STATE OF CALIFORNIA
--ooOoo-MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS
--ooOoo-ELIZABETH GARFINKLE
California Bar # 228536
Supreme Court Bar Member, as of October 12, 2010
Law Office of Elizabeth Garfinkle
P.O. Box 13172
Oakland, California 94661
lizgarfinkle@gmail.com * (510) 501-0542
Counsel of Record for Petitioner,
ISIAH LAMONTE BROWN

1

TO THE HONORABLE CHIEF JUSTICE OF THE SUPREME COURT
OF THE UNITED STATES AND TO THE HONORABLE ASSOCIATE
JUSTICES OF THE COURT:
Pursuant to Rule 39 of the Rules of the Supreme Court of the United States,
Petitioner Isiah Lamonte Brown respectfully requests leave to file a petition for writ
of certiorari in forma pauperis. Petitioner sought leave to file in forma pauperis in
the state courts and it was granted. Petitioner was represented by appointed
counsel in state court at all times, and he has been represented by the undersigned
appointed counsel in both the California Court of Appeal and the California
Supreme Court.
A copy of the order of appointment is attached to this motion.
Dated: May 27, 2021

Respectfully submitted,

ELIZABETH GARFINKLE
Law Office of Elizabeth Garfinkle
P.O. Box 13172
Oakland, California 94661

lizgarfinkle@gmail.com
(510) 501-0542
Counsel of Record for Petitioner,
Isiah Lamonte Brown

2

Exhibit A
Order Appointing Elizabeth Garfinkle as Counsel
California Court of Appeal,
First District, Division Three

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
FIRST APPELLATE DISTRICT
DIVISION 2

THE PEOPLE,
Plaintiff and Respondent,
v.

A152905
(Solano County
Super. Ct. No. VCR228826)

Isiah Brown,
Defendant and Appellant.

Order Appointing Counsel
By the Court:
Upon the recommendation of the First District Appellate Project, Elizabeth Garfinkle
(State Bar No. 228536) is appointed to represent appellant Isiah Brown in this Court on
an independent basis.
If the record has not yet been transmitted, the Clerk of the Superior Court is directed
to send the record on appeal to:
Elizabeth Garfinkle
P.O. Box 13172
Oakland, CA 94661.

Appellant's Opening Brief shall be filed forty (40) days from either the date of the
filing of the record or from the date of this order, whichever is later.

Appellant:

Appointed Counsel:

Isiah Brown ()
2751 Peppertree Dr.
Fairfield, CA 94590

Elizabeth Garfinkle
P.O. Box 13172
Oakland, CA 94661

